     DEPARTMENT OF HOMELAND SECURITY

      Ofﬁce of Inspector General


            Re-Engining of the HH-65 Helicopter
	

                     United States Coast Guard
	




Notice: The Department of Homeland Security, Ofﬁce of the Inspector General, has redacted
this report for public release under the Freedom of Information Act, 5 U.S.C. § 552 (b)(4).




                          Ofﬁce of Audits
OIG-04-50                                     September 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                        Contents
	
                                                                                                                                                         1




  Introduction ................................................................................................................................... 5
	

  Results in Brief .............................................................................................................................. 6
	

  Background ......................................................................................................................................8
	

  Safety and Reliability.....................................................................................................................10
	

  Cost, Delivery, and Operational Risks...........................................................................................13
	

  Effect On the Coast Guard’s Legacy Aviation Assets....................................................................17
	

  HH-65 and the Coast Guard’s HITRON Mission .........................................................................19
	

  Ability of the HH-65 to Meet Deepwater’s MCH Requirements ..................................................21
	

  Latest Developments .....................................................................................................................23
	

  Recommendations..........................................................................................................................25
	



Appendices

  Appendix A:            Comparison of the Performance of the Honeywell LTS-101 and Turbomeca
                         Arriel 2C2 Engines...............................................................................................26
	
  Appendix B:            Photographs of a HH-65 Progressing through the PDM Line at ARSC ..............28
	
  Appendix C:            Purpose, Scope, and Methodology ......................................................................30
	
  Appendix D:            U.S. Coast Guard Comments ..............................................................................32
	
  Appendix E:            OIG Evaluation of Coast Guard Response ..........................................................38
	
  Appendix F:            Major Contributors to this Report ........................................................................41
	
  Appendix G:            Report Distribution...............................................................................................42
	
  Appendix H:            Textual Translation of Figures in the Report........................................................43
	




                                         Re-Engining of the HH-65 Helicopter                                                                    Page 1

                                             United States Coast Guard 

Contents
	

Abbreviations

ACCB            Aircraft Conﬁguration and Control Board
AEC             American Eurocopter
AMIO            Alien Migration Interdiction Operations
ARSC            Coast Guard’s Aircraft Repair and Supply Center
AUF             Airborne Use of Force
CGNR            Coast Guard Identiﬁcation Number
DHS             Department of Homeland Security
DOD             Department of Defense
FAA             Federal Aviation Administration
FADEC           Full Authority Digital Engine Control system
FLIR            Forward Looking Infrared
GAO             Government Accountability Ofﬁce
G-O             Assistant Commandant for Operations
G-S             Assistant Commandant for Systems
HITRON          Helicopter Interdiction Tactical Squadron
HLS             Homeland Security
HOGE            Hover Out of Ground Effect
HUD             Heads Up Display
IDS             Integrated Deepwater System
ICGS            Integrated Coast Guard Systems
IPT             Integrated Product Team
LANTAREA        Atlantic Area
LE              General Law Enforcement
LMR             Living Marine Resource
MCH             Multi-mission Cutter Helicopter
MPA             Maritime Patrol Aircraft
MTBF            Mean Time Between Failures
NCGI            Non-Contract Government Incurred
OEM             Original Equipment Manufacturer
OIG             Ofﬁce of Inspector General
ONF             Operation New Frontier
PACAREA         Paciﬁc Area



Page 2                       Re-Engining of the HH-65 Helicopter
                                 United States Coast Guard
                                                    Contents
	
                                                                       1




PDM    Planned Depot Maintenance
PBH    Power-By-the-Hour
RAC    Risk Assessment Code
SAR    Search and Rescue
SHP    Shaft Horse Power
SLEP   Service Life Extension Project
SPS    System Performance Speciﬁcation
SRR    Short Range Recovery
VUAV   Vertical Takeoff and Landing Unmanned Aerial Vehicle
VDEL   Vertical Delivery
VI     Vertical Insertion




       Re-Engining of the HH-65 Helicopter                    Page 3
           United States Coast Guard
Page 4   Re-Engining of the HH-65 Helicopter
             United States Coast Guard
OIG
	                                                                                                                                       1




Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                                 This report presents the results of our review of the United States Coast Guard’s
                                 (Coast Guard) HH-65 Dolphin helicopter re-engining project. The review
                                 was initiated in response to a February 11, 2004, letter from the Chairman and
                                 Ranking Member of the House of Representatives, Committee on Appropriations,
                                 Homeland Security Subcommittee, expressing concern that the re-engining
                                 requirements speciﬁed for the HH-65 helicopter are not sufﬁcient for the needs
                                 of the Coast Guard over the Deepwater Project time frame. During subsequent
                                 discussions with Subcommittee staff, additional concerns were raised about
                                 the capabilities of the LTS-101-850 engine1 and the potential cost, delivery,
                                 and operational risks associated with the Coast Guard’s decision to enter into
                                 a contract with Integrated Coast Guard Systems (ICGS)2 to re-engine the HH-
                                 65 ﬂeet with Turbomeca Arriel 2C2 engines. In a March 30, 2004, letter to the
                                 Homeland Security Subcommittee, we responded to the following ﬁve questions:

                                      • 	 Will re-engining the HH-65 resolve air crew safety and reliability
                                          concerns?

                                      • 	 What are the costs, delivery, and operational risks associated with the
                                          Coast Guard’s decision to assign responsibility for re-engining the HH-
                                          65 to ICGS?

                                      • 	 What impact will the re-engining project have on the Coast Guard’s other
                                          legacy air assets?

                                      • 	 Should the re-engined HH-65 aircraft be upgraded to perform the Coast
                                          Guard’s Helicopter Interdiction Tactical Squadron (HITRON) mission? 3




    1
      The engine under evaluation as a temporary replacement for the current HH-65 LTS-101-750 engine.
	
    2
      ICGS is the prime contractor for the Coast Guard’s Deepwater Project.
	
    3
      The HITRON Squadron was established in FY 2000 to employ airborne use of force in the interdiction of go-fast boats engaged in 

    the smuggling of illegal drugs through the U.S. maritime contiguous zone. The squadron currently operates a ﬂeet of eight MH-68A
	
    helicopters leased from Agusta Aerospace Corporation at a cost of $14.3 million per year. The current HITRON ﬁve-year lease is 

    renewable on a yearly basis and expires during January 2008. 




                                          Re-Engining of the HH-65 Helicopter                                                      Page 5
                                              United States Coast Guard
                                   • 	 Will the re-engined HH-65 be able to meet the Multi-mission Cutter
                                       Helicopter (MCH) requirements outlined in the existing Deepwater
                                       contract?

                             This report expands our response to those questions and includes developments
                             through August 31, 2004, regarding the HH-65 re-engining project.



Results in Brief
                             According to the Coast Guard, replacing the Honeywell LTS-101-750 engines
                             that are currently installed on the Coast Guard’s HH-65 ﬂeet will resolve
                             many of the safety and reliability issues that have plagued the HH-65 ﬂeet for
                             much of the past decade. However, extended negotiations between the Coast
                             Guard, ICGS, and its subcontractors4 has postponed the implementation of the
                             re-engining project by several months. Re-engining the HH-65 was authorized by
                             the Commandant of the Coast Guard on January 15, 2004, because of an urgent
                             and compelling need to mitigate safety and operational risks associated with the
                             aircraft. It has been almost eight months since the Coast Guard directed ICGS to
                             take immediate and deﬁnitive action to re-engine the HH-65 ﬂeet, yet a formal
                             agreement to re-engine the HH-65 ﬂeet has yet to be ﬁnalized.

                             In addition, ICGS’ latest proposal5 does not meet the Coast Guard’s desire to have
                             84 operational aircraft completed by July 2006. Instead, ICGS proposes to have
                             84 of the 95 re-engined aircraft completed by June 2007 – eleven months beyond
                             the Commandant’s 24-month deadline. Extending the delivery date will expose
                             HH-65 air crews to additional risk due to the unprecedented rate at which in-ﬂight
                             loss of power mishaps are occurring.

                             Further, ICGS’ latest cost proposal for re-engining the entire HH-65 ﬂeet is
                                                             than the Coast Guard’s estimate for re-engining
                             the aircraft in-house at its Aircraft Repair and Supply Center (ARSC). This is
                             a signiﬁcant cost differential given ICGS’ intention to have the majority of the
                             re-engining work performed by ARSC, the effect these additional expenditures
                             will have on the Coast Guard’s ability to sustain and upgrade its legacy aviation
                             assets, and the stated inability of ICGS to deliver 84 re-engined aircraft within

4
  Eurocopter is the manufacturer of the HH-65 airframe and the airframe modiﬁcations kits, including the N4 gearbox upgrade kit, to be 

installed aboard the HH-65. Turbomeca is the manufacturer of the Arriel 2C2 engine. 

5
  ICGS/Lockheed Martin Proposal dated July 21, 2004.
	
6
  Ibid. 




Page 6                                                     Re-Engining of the HH-65 Helicopter
                                                               United States Coast Guard
                                                                                                                                             1




                              the Commandant’s 24-month time frame. The proposal also exceeds the Coast
                              Guard’s AC&I estimate for the re-engining project.7

                              The Coast Guard plans to fund the re-engining project using almost $200 million
                              originally budgeted to sustain and upgrade legacy air assets, including its Jayhawk
                              (HH-60), Dolphin (HH-65), and Hercules (HC-130) ﬂeets. Use of these funds
                              for the re-engining will force the Coast Guard to postpone or cancel critical
                              maintenance and upgrade projects that could result in ﬂeet cannibalization8 and
                              the grounding of key aviation assets as early as FY 2007.

                              The Coast Guard also decided not to replace the eight MH-68A helicopters
                              operated by its HITRON squadron with re-engined and Airborne Use of Force
                              (AUF)-capable HH-65s. This decision eliminates an opportunity to resolve the air
                              crew safety, power, maneuverability, and operational endurance issues associated
                              with the leased aircraft. The use of re-engined and AUF-capable HH-65s for the
                              HITRON mission would eliminate the need for a lease and result in a net savings
                              of                dollars over the next three years.9

                              We recommended that the Commandant implement the recommendation made
                              by its Assistant Commandant for Operations in May 2004 to re-assert control
                              over the HH-65 re-engining project and perform the re-engining as a government
                              performed project. The Coast Guard does not concur with this recommendation,
                              their primary rationale being that ICGS minimizes the operational, legal, and
                              contract performance risks associated with the re-engining. The Coast Guard
                              believes that it receives signiﬁcant beneﬁts from the current ICGS contract that far
                              outweigh the costs of having ICGS manage the project. We do not believe those
                              beneﬁts have been demonstrated in this instance.

                              We also recommended that the Coast Guard expedite the replacement of the
                              MH-68A helicopters with re-engined HH-65s equipped with the AUF package of
                              upgrades, acquire and refurbish additional HH-65 aircraft and airframes, and use
                              the savings resulting from the termination of the MH-68A lease to mitigate the
                              impact the re-engining project will have on the maintenance and upgrade of its
                              legacy air assets. The Coast Guard agreed in part with these recommendations,
                              but in all three cases cites a lack of funding as the primary reason for not
                              implementing them.
7
  The Coast Guard’s Aviation Capital Improvement Plan, dated January 7, 2004, allocated                  to the HH-65 re-engining project.
8
  The borrowing of parts from one aircraft in order to keep another aircraft operational.
9
  The elimination of $43.5 million dollars in lease costs minus the estimated             dollar cost (estimated at           aircraft) of
adding the AUF upgrade to eight re-engined HH-65s.
10
   The HH-60 mishap rate data covers the period October 1, 2003, through August 31, 2004.


                                        Re-Engining of the HH-65 Helicopter                                                         Page 7
                                            United States Coast Guard
Background
                                In 1984, the Coast Guard procured 96 twin-engine, short-range recovery (SRR)
                                HH-65 helicopters equipped with LTS-101-750 engines. The compact design
                                of this engine provided limited potential for power growth. Expanding mission
                                parameters and critically needed mission growth exacerbated the performance
                                requirements gap to a point where the aircraft can no longer meet the Coast
                                Guard’s SRR mission requirements. There are currently 84 operational HH-65
                                aircraft deployed to 17 Coast Guard air stations throughout the United States.
                                The HH-65 helicopter performs several important missions including search and
                                rescue, homeland security, enforcement of laws and treaties, drug interdiction,
                                marine safety, and marine environment protection. The aircraft is also the Coast
                                Guard’s primary cutter deployable helicopter.

                                There has been an increase in the number of HH-65 in-ﬂight loss of power
                                mishaps over the past three and one half years. Coast Guard HH-65 air crews
                                reported 32 in-ﬂight loss of power mishaps between FY 2000 and FY 2002.
                                During FY 2003, HH-65 air crews reported another 32 in-ﬂight loss of power
                                mishaps, or a three-fold increase over FY 2000, which led to the Commandant’s
                                October 3, 2003, decision to impose operational restrictions on the HH-65 ﬂeet.
                                These restrictions are affecting the aircraft’s ability to conduct search and rescue,
                                homeland security, enforcement of laws and treaties, drug interdiction, marine
                                safety, and marine environment protection missions from Coast Guard cutters. In
                                addition, these restrictions have limited the aircraft’s ability to perform medical
                                evacuation missions involving takeoffs and landings from rooftop landing pads
                                and other conﬁned areas.

                                The number and rate of in-ﬂight loss of power mishaps have continued to increase
                                despite the imposition of ﬂight restrictions. Between October 1, 2003, and
                                August 31, 2004, HH-65 air crews reported 150 in-ﬂight loss of power mishaps.
                                This translates into a mishap rate of 314 mishaps per 100,000 ﬂight hours. In
                                comparison, the Coast Guard’s in-ﬂight loss of power mishap rate for the HH-60
                                helicopter is 18 mishaps per 100,000 ﬂight hours.10 Chart 1 includes a summary
                                of HH-65 in-ﬂight loss of power mishaps per 100,000 ﬂight hours between FY
                                1997 and FY 2004.11




11
     The data covers the period October 1, 1996, through August 31, 2004.
12
     One mission by a single aircraft.


Page 8                                                       Re-Engining of the HH-65 Helicopter
                                                                 United States Coast Guard
                                                                                                                                     1




                                                  Chart 1. – HH-65 In-Flight Loss of Power Mishaps
	
                                                        FY 1997 to FY 2004 (August 31, 2004)
	




                                                                                                                          150


                                                                                                                  32
                                           9                     11                       12




                                  Source: U.S. Coast Guard

                                In an October 3, 2003, message announcing the decision to impose operating
                                restrictions on the HH-65, the Commandant stated:

                                    “I cannot be more emphatic. The safety and reliability of the HH-65
                                    power plant is the number one priority for USCG aviation. The safety
                                    of our ﬂight crews is paramount. Our most valued asset remains the
                                    professional Coast Guard men and women who continue to admirably
                                    answer our Nation’s call. The missions we perform carry inherent risks,
                                    the equipment we provide to complete those missions should be nothing
                                    short of safe and reliable.”

                                The erratic performance of the aircraft’s current LTS-101-750/850 engine and
                                control system has shaken the conﬁdence of the HH-65 community. Recent
                                communications from commanding ofﬁcers of several air stations cited concerns
                                that engine malfunctions were draining resources and signiﬁcantly affecting the
                                air station’s ability to perform Coast Guard missions. Maintenance technicians
                                are spending more time diagnosing and ﬁxing problems, only to see them soon
                                recur. Training missions, which previously were completed in one sortie,12 are
                                now requiring two or more sorties, adding additional takeoffs and landings. These
13
     According to the Coast Guard, ICGS independently selected the Arriel 2C2 engine for the HH-65 re-engining project.


                                         Re-Engining of the HH-65 Helicopter                                                Page 9
                                             United States Coast Guard
                              additional sorties increase the workload of air station personnel as well as increase 

                              air crew exposure to in-ﬂight loss of power mishaps.

                              The following excerpt from an April 2004 communication between the
                              commanding ofﬁcer of a Coast Guard air station and Coast Guard headquarters is
                              indicative of the level of concern being expressed within the HH-65 community
                              regarding the safety of ﬂight and reliability issues associated with the HH-65:

                                   “…I conservatively estimate we spent 50 maintenance man-hours,
                                   10 ground run hours, 6.2 test ﬂight hours chasing this problem. As a
                                   skipper I’m proud of the perseverance my maintenance crews displayed
                                   in solving this problem, but at the same time, I’m completely frustrated
                                   at the sheer effort expended to deal with this ridiculously complex and
                                   unreliable engine control system. In reading similar accounts from other
                                   air stations, one has to wonder just how many ‘unnecessary replacement
                                   of components’ situations have occurred not only recently but over the
                                   years, and what that has cost us. Even with the application of new
                                   trouble-shooting devices such as the breakout box, we still ﬁnd ourselves
                                   tangled in these time-consuming resource draining trouble-shooting tail
                                   chases. I realize we have folks working around the clock to bring the
                                   solution on board quickly. However, we absolutely cannot allow any time
                                   line delays in implementing the solution, not only from a risk exposure
                                   perspective, but also a maintenance resource perspective. We are grinding
                                   our maintenance workforce into the ground with this engine control
                                   system….”



Safety and Reliability
                              When completed, re-engining the Coast Guard’s HH-65 helicopter ﬂeet, using
                              the Arriel 2C2 engine, will remedy long-standing safety and reliability issues that
                              have plagued the HH-65 since its introduction in 1984. The selection of the Arriel
                              2C2 was the culmination13 of a three year, six million dollar effort by the Coast
                              Guard to develop the HH-65 into an AUF-capable platform.14 The urgency to
                              develop the HH-65 into an AUF-capable platform increased following the terrorist
                              attacks of September 11, 2001, and the Coast Guard’s realization that it needed
                              to develop an organic AUF capability to perform HLS missions along the United


14
     AUF is not currently part of the HH-65 or Deepwater mission proﬁle.
	
15
     The HH-65 that was re-engined and given the AUF upgrades was designated CGNR 6560.
	


Page 10                                                   Re-Engining of the HH-65 Helicopter
                                                              United States Coast Guard
                                                                                                                                      1




                            States coastline. The majority of HH-65s are stationed near our nation’s busiest
                            and most strategic seaports.

                            The Coast Guard began investigating the use of a modiﬁed HH-65 to perform
                            counter-drug missions during the early part of 2001 following a lengthy delay in
                            the production, testing, and delivery of eight MH-68A aircraft for the HITRON
                            squadron. The MH-68A is a militarized version of the Agusta A109E aircraft that
                            was re-conﬁgured to AUF speciﬁcations to conduct counter drug operations from
                            Coast Guard cutters. While the concept of operations underlying the HITRON
                            counter drug mission has been successful, the Coast Guard has determined
                            that the MH-68A helicopter does not meet the minimum reserve power,
                            maneuverability, and operational endurance requirements for the AUF mission.

                            In November 2001, the Coast Guard tasked Eurocopter to conduct a market
                            survey and engineering analysis of suitable engine candidates that would provide
                            the HH-65 with the AUF capability. The Eurocopter market survey identiﬁed the
                            Arriel 2C2 engine as the engine best able to provide the HH-65 with the power,
                            speed, maneuverability, and endurance needed to perform the AUF mission.

                            Between September 2002 and December 2003, the Coast Guard’s ARSC, in close
                            coordination with the Assistant Commandant for Operations (G-O), Assistant
                            Commandant for Systems (G-S), Turbomeca, Eurocopter, and NAVAIR Patuxent
                            River, developed and ﬂight-tested a re-engined and AUF-capable HH-65.15 This
                            aircraft was ﬁtted with a pair of Arriel 2C2 engines, updated engine controls and
                            gauges, an extended nose, an N4 gearbox, and the AUF package of upgrades.




16
  In addition to SAR, non-HLS missions include: Marine Safety; Aids-to-Navigation; Ice Operations; Marine Environmental Protection;
and Living Marine Resources.

                                      Re-Engining of the HH-65 Helicopter                                                   Page 11
                                          United States Coast Guard
                                                              Extended Nose Upgrade


                                   Source: U.S. Coast Guard
                                      CGNR 6560 – Prototype AUF HH-65C -- Re-engined HH-65 with the extended
                                      nose, N4 gearbox, and AUF upgrades based at the Coast Guard’s Aircraft Repair and
                                      Supply Center, Elizabeth City, North Carolina. The aircraft has been deployed on
                                      counter-drug operations in the Eastern Paciﬁc.



                             According to the Coast Guard, the ﬂight testing and performance analysis
                             of a HH-65 that was ﬁtted with the Arriel 2C2 engines and AUF upgrades
                             (CGNR 6560), validated Eurocopter’s earlier determination that the performance
                             of the re-engined and upgraded HH-65 meets or exceeds the power, speed,
                             maneuverability, and endurance requirements needed to safely execute the AUF
                             mission. In contrast, ﬂight-testing and performance analysis of HH-65s powered
                             by LTS-101-750/850 engines determined that the engine lacked the power,
                             maneuverability, and endurance requirements needed to safely execute non-HLS
                             missions16 such as search and rescue (SAR), let alone the more demanding AUF
                             and HLS missions.17 Appendix A presents a comparison of the performance
                             capabilities between the LTS-101 and Arriel 2C2 engines under varying operating
                             conditions.


17
   Homeland Security Missions include: Drug Interdiction; Migrant Interdiction; other law enforcement (including foreign ﬁsheries); Port, 

Waterways, and Coastal Security; and Defense Readiness.
	
18
   Manufacturers of the HH-65 airframe and Arriel 2C2 engine.
	
19
   The May 28, 2004, proposal included $62 million dollars worth of Lockheed Martin and Integrated Coast Guard System labor, material, 



Page 12                                                    Re-Engining of the HH-65 Helicopter
                                                               United States Coast Guard
                                                                                                                                       1




Cost, Delivery, and Operational Risks
	
                            The inability of the Coast Guard, ICGS, and its subcontractors (Eurocopter
                            and Turbomeca)18 to agree on a ﬁnal contract has delayed the development and
                            implementation of the HH-65 modiﬁcation line at ARSC. It also will postpone
                            the delivery of re-engined aircraft by several months, extend the operational
                            restrictions imposed on the HH-65 ﬂeet, and expose HH-65 air crews to additional
                            in-ﬂight loss of power mishaps. In addition, the Coast Guard’s decision to assign
                            responsibility for the HH-65 re-engining project to ICGS will signiﬁcantly and, in
                            our view, unnecessarily, increase the project’s ﬁnal cost.

                            ICGS’ initial proposal to re-engine 95 HH-65 aircraft was approximately
                                                                                           the Coast Guard
                            estimates it would have cost them to re-engine the same number of aircraft
                            at its Aircraft Repair and Supply Center (ARSC). This was a signiﬁcant cost
                            differential given ICGS’ initial intention to have ARSC re-engine more than half
                            of the HH-65 ﬂeet, the effect that the additional expenditures would have on the
                            Coast Guard’s ability to sustain and upgrade its legacy aviation assets, and the fact
                            that the proposal would not complete the re-engining within the Commandant’s
                            24-month time frame. Appendix B contains photographs of HH-65s undergoing
                            overhaul at ARSC.

                            ICGS, its subcontractors, and the Coast Guard engaged in a de-scoping session
                            during June 2004 for the purpose of ﬁnding a way to reduce the cost of the re-
                            engining proposal without compromising the Commandant’s desire to re-engine
                            all 95 HH-65s within a 24-month period. On July 21, 2004, ICGS submitted a
                            second proposal recommending that the Coast Guard re-engine the entire
                            HH-65 ﬂeet at its ARSC at a proposed cost of                    . While ICGS was
                            successful in reducing the size, scope, and cost of the ﬁrst proposal, the proposal
                            still contained millions of dollars worth of material handling, labor, incentive
                            expenses, and fees. For example, the July 2004 proposal included performance
                            award and incentive fee criteria that could reward ICGS up to $36 million for
                            the timely delivery of goods and services that the contractor has little or no
                            direct control over. The re-engining proposal was to be valid through Tuesday,
                            August 31, 2004.




overhead expenses, and incentive fees. 

20
   Maintenance contract between the Coast Guard and Honeywell to support the LTS-101 engines currently installed aboard the HH-65 

ﬂeet. 



                                      Re-Engining of the HH-65 Helicopter                                                    Page 13
                                          United States Coast Guard
                           ICGS also has experienced difﬁculty developing and implementing a 

                           realistic delivery schedule. Shortly after accepting responsibility for the re-
                           engining project, ICGS provided the Coast Guard and the Homeland Security
                           Subcommittee with a notional delivery schedule. The March 2004 schedule
                           called for the ﬁrst re-engined HH-65 to be delivered for ﬂight-testing by June 4,
                           2004, with an additional 20 aircraft to be delivered by the end of CY 2004. In
                           addition, the schedule committed to re-engine the ﬁrst 84 aircraft before July
                           2006, the date for which the Coast Guard’s Power-by-the-Hour contract with
                           Honeywell expires.20 On May 14, 2004, ICGS informed the Coast Guard that
                           delivery of the ﬁrst re-engined HH-65 would be delayed until July 2004 and that
                           the remaining 83 operational aircraft would be delivered by July 2006.21 They
                           also said the entire HH-65 ﬂeet (95 helicopters) would be delivered to the Coast
                           Guard by January 2007.22 However, ICGS’ May 28, 2004, proposal issued two
                           weeks later decreased the total number of aircraft to be re-engined by the July
                           2006 deadline from 84 to 54, with the remaining 41 aircraft to be re-engined by
                           August 2007 - well beyond the Commandant’s 24-month timetable.

                           The delivery schedule accompanying ICGS’ July 21, 2004, proposal decreases
                           the total number of aircraft to be re-engined by July 2006 from 54 to 52 aircraft.
                           The remaining 43 aircraft are scheduled to be re-engined by the end of November
                           2007, or 46 months after the Coast Guard assigned responsibility for the re-
                           engining project to ICGS. Table 1 provides a summary of the aircraft delivery
                           schedules provided by ICGS to the Coast Guard between March and July 2004.




21
   According to the Coast Guard, the delivery of the ﬁrst re-engined HH-65 will not occur before September 2004.
	
22
   All 84 aircraft would have to be delivered by July 2006 in order to meet the Commandant’s 24 month timetable. 

23
   GAO Report: Coast Guard’s Deepwater Program Needs Increased Attention to Management and Contractor Oversight (GAO-04-380; 

March 2004). GAO Report: Coast Guard: Deepwater Program Acquisition Schedule Update Needed (GAO-04-695; June 2004).
	



Page 14                                               Re-Engining of the HH-65 Helicopter
                                                          United States Coast Guard
                                                                                                                                     1




                                                 Table 1 – Proposed ICGS Delivery Schedules,

                                                HH-65 Re-engining Project (March – July 2004)
	

                                 ICGS Notional                                   ICGS Notional            ICGS Notional
                                                        ICGS Notional
                                   Production                                  Production Schedule      Production Schedule
                                                      Production Schedule
                 Date               Schedule                                     Proposal Dated           Proposal Dated
                                                         May 14, 2004
                                 March 16, 2004                                   May 28, 2004             July 21, 2004
         By June 2004           HH-65 No. 1
         By July 2004
         By August 2004         HH-65 No(s). 2-5
         By September 2004      HH-65 No(s). 6-10
         By December 2004       HH-65 No(s). 11-21    HH-65 No(s). 1-2
         By December 2005       HH-65 No(s). 22-69    HH-65 No(s). 3-43
         By July 2006           HH-65 No(s). 70-95    HH-65 No(s). 44-84       HH-65 No(s). 1-54       HH-65 No(s). 1-52
         By December 2006                             HH-65 No(s). 85-95       HH-65 No(s). 55-70      HH-65 No(s). 53-70
         By January 2007                                                       HH-65 No(s). 71-74      HH-65 No(s). 71-73
         By May 2007                                                           H-65 No(s). 74-87       HH-65 No(s). 74-83
         By August 2007                                                        HH-65 No(s). 88-95      HH-65 No(s). 84-89
         By November 2007                                                                              HH-65 No(s). 90-95
        Source: U.S. Coast Guard and ICGS

                            ICGS’ July 2004 proposal could further increase the number of HH-65s that
                            will have to be removed from operational service to meet the revised delivery
                            schedule. The Coast Guard typically has 11 HH-65 aircraft out-of-service for
                            overhauls and upgrades at any given time. The latest American Eurocopter
                            Corporation (AEC) proposal to ICGS contains an option to re-engine 46 HH-65s
                            at its Columbus, Mississippi, plant at a per unit labor cost that is almost three
                            times what it would cost the Coast Guard to perform the same work at ARSC.
                            The AEC option offers the Coast Guard an opportunity to expedite the re-engining
                            project by about three months. However, should the Coast Guard exercise this
                            option, more than 17 HH-65s would have to be removed from service at any given
                            time. According to the Coast Guard, removing more than 17 aircraft from service
                            would signiﬁcantly impact its ability to train personnel and execute its search and
                            rescue, migrant interdiction, law enforcement, marine environmental protection,
                            and HLS missions.

                            The ﬁndings of two recently issued Government Accountability Ofﬁce (GAO)
                            reports23 have increased our concern about ICGS’ ability to manage the HH-65
                            re-engining project. In March 2004, GAO reported problems in delivery,

24
  According to Coast Guard’s Ofﬁce of Budget and Programs, the MPA delay was the result of Coast Guard requirement changes and
available funding.


                                     Re-Engining of the HH-65 Helicopter                                                   Page 15
                                         United States Coast Guard
                               performance, cost control, and contract administration of two major Deepwater 

                               projects: the modernization, lengthening, and life extension overhaul for the
                               110-foot Island Class patrol boat ﬂeet; and the acquisition of maritime patrol
                               aircraft (MPA). Under ICGS’ plan, the ﬁrst Island Class patrol boat, the
                               MATAGORDA, was scheduled for a November 2003 delivery. However, the
                               MATAGORDA was not delivered until March 2004. According to the GAO, the
                               delay affects the delivery schedules and costs associated with the remaining 48
                               cutters to be upgraded under the contract.

                               The GAO reports that schedule milestones for the MPA acquisition have not been
                               met.24 Delivery of the ﬁrst two MPAs was originally scheduled for FY 2005.
                               However, current plans call for these aircraft to be delivered during late FY 2006
                               or early FY 2007. The delays involving the Island Class patrol boats, the MPA,
                               and now the HH-65s, all occurred early in the projects’ time line, raising serious
                               uncertainties about ICGS’ ability to meet its delivery schedules.

                               The GAO criticizes Deepwater’s Integrated Product Teams (IPTs), the same entity
                               that has been administrating the HH-65 re-engining project. The GAO reported
                               that Deepwater IPTs struggled to collaborate and accomplish their missions
                               effectively, due to training deﬁciencies, inadequate communication among
                               members, lack of timely charters to vest IPTs with authority for decision-making,
                               and high turnover rates for IPT membership. The recent resignation of the
                               Deepwater team leader responsible for overseeing the HH-65 re-engining project
                               working group is a case in point.

                               On June 14, 2004, the GAO issued a second report on the status of Deepwater
                               projects. The report contains additional details on the status of a number of
                               critical assets to be upgraded or acquired during the Deepwater time frame.
                               The GAO noted that in two instances, the delivery of assets were so far behind
                               schedule that it would be impossible for ICGS to return them to their original
                               schedule. Of the 18 Island Class patrol boats scheduled to be lengthened,
                               upgraded, and delivered to the Coast Guard by the end of FY 2005, only eight
                               are now scheduled to be completed by the end of FY 2005. In addition, the GAO
                               cited that the delivery of the Vertical Take-Off and Landing Unmanned Aerial
                               Vehicle (VUAV) has experienced similar delays.




25
     This amount does not include funding for HH-65 engine replacement or maintenance.




Page 16                                                    Re-Engining of the HH-65 Helicopter
                                                               United States Coast Guard
                                                                                                                                           1




Effect on the Coast Guard’s Legacy Aviation Assets
                             The Coast Guard’s decision to use funds from the Deepwater’s legacy asset
                             maintenance account to fund the HH-65 re-engining project will postpone
                             or cancel nearly $200 million of AC&I funding originally dedicated for the
                             sustainment and upgrade of its legacy aviation assets for FY 2004 through FY
                             2006. According to the Coast Guard, the deferment of these much-needed
                             upgrades could impact the readiness of key legacy air assets, including the re-
                             engined HH-65, HH-60, and HC-130 aircraft.

                             Prior to the Commandant’s decision to re-engine the HH-65, the Coast Guard had
                             budgeted $226 million for maintenance and upgrades to the Coast Guard’s legacy
                             aircraft.25 These upgrades originally included the updating of the weather and
                             surface search radar and Forward Looking Infrared (FLIR) installations aboard
                             its HH-65, HH-60, and HC-130. The Coast Guard also planned to re-engineer
                             and upgrade the HH-65’s tail rotor blade assembly and landing gear. In addition,
                             other airframe, radar, sensor, and avionics upgrades were budgeted for the HH-60
                             helicopter. Many of these upgrades however, have been cancelled or indeﬁnitely
                             postponed. Table 2 contains a listing of the legacy aviation asset sustainment and
                             upgrade projects originally planned for FY(s) 2004 through 2006.




26
  The average time (usually expressed in hours) that a component works without failure. The Coast Guard requires its aircraft components
to meet a MTBF of 800 hours.

                                       Re-Engining of the HH-65 Helicopter                                                     Page 17
                                           United States Coast Guard
                                               Table 2. –USCG Legacy Aviation Asset Sustainment and 

                                                            Modernization Spend Plan 

                                                             (FY 2004 thru FY 2006)
	
                                      Requested                      Requested **                   Requested **
                                                      FY 2004                          FY 2005 *                   FY 2006 *
               AIR                     FY 2004                         FY 2005                        FY 2006
                                                      Received                         Spend Plan                  Spend Plan
                                     ($Thousands)                    ($Thousands)                   ($Thousands)
 HH-65 Landing Gear
                                        $ 2,200             $0         $   2,600             $0
 Recapitalization

 HH-60 Avionics Upgrade                $ 29,600        $ 10,000        $ 23,400              $0

 HH-60 Service Life
                                        $ 1,300             $0         $   4,500             $0
 Extension Project (SLEP)
 HH-60 Integrated Radar/
                                        $ 4,400             $0         $ 11,000              $0
 FLIR Upgrade
 HH-65 Integrated Radar/
                                        $ 6,000             $0         $ 15,500              $0
 FLIR Upgrade
 HC-130 APS-137 Search
                                       $ 11,830             $0         $ 10,500              $0
 Radar Replacement
 HC-130 Weather Radar
                                        $ 9,520             $0         $   3,702             $0
 Replacement
 HH-65 Tail Rotor
                                        $ 2,850             $0         $   2,850             $0
 Recapitalization
 HH-60 T-700 Engine
                                        ---------           $0         $   8,000             $0
 Upgrade

                          Total        $ 67,700        $ 10,000        $ 82,052              $0


Source: U.S. Coast Guard
                     *     Data from Integrated Deepwater System Projected FY05-FY09 Budget Plan
                     **    Data from Aviation Capital Improvement Plan – dated 7 January 2004


                                  According to the Coast Guard, failure to make the improvements and upgrades to
                                  its legacy aircraft will increase operating costs. It also will reduce the operational
                                  capability of critical air assets at a time when the overall number of ﬂight
                                  hours devoted to Coast Guard missions is increasing. Between FY 2001 and
                                  FY 2003, the total number of ﬂight hours for all Coast Guard legacy aircraft in
                                  support of Coast Guard missions increased by 9%. Further, many of the planned
                                  maintenance and upgrades are needed because of the decline in the Mean Time
                                  Between Failure (MTBF) 26 rate of critical components. For example, between
27
     According to the Coast Guard, the Army recently discontinued the use of the RDL-1300.




Page 18                                                     Re-Engining of the HH-65 Helicopter
                                                                United States Coast Guard
                                                                                                                                              1




                              FY 1997 and FY 2003, the MTBF of weather radar components installed aboard
                              the HH-65, HH-60, and HC-130 aircraft declined from 946 to 400 hours.

                              During the same period, the Army declared the RDR-1300 radar obsolescent and
                              the original equipment manufacturer will soon stop making replacement parts
                              for this system.27 Currently, the Coast Guard employs the RDR-1300 aboard its
                              HH-65, HH-60, and HH-130 aircraft. According to the Coast Guard, the declining
                              MTBF associated with the RDR-1300 is expected to impact maintenance and
                              repair costs and increase the stress on its spare parts system. Over time, the lack
                              of spare parts could force Coast Guard air stations to cannibalize28 aircraft in order
                              to maintain aircraft and air station readiness.

HH-65 and the Coast Guard’s HITRON Mission
                              The replacement of the eight leased aircraft operated by the HITRON squadron
                              with a re-engined and AUF-upgraded HH-65 would resolve the air crew safety,
                              power, maneuverability, and ﬂight endurance issues associated with the ﬂeet
                              of leased aircraft. It also would reduce the number of ﬂight hours devoted to
                              AUF-related training, free-up valuable transit time and asset support required
                              to deploy HITRON assets to the Coast Guard’s Paciﬁc Area (PACAREA) for
                              counter-drug deployments, eliminate an aircraft lease valued at more than $43
                              million over the next three years, and offset some of the costs associated with the
                              sustainment of legacy aviation assets. The Coast Guard’s HITRON unit has been
                              conducting counter drug interdiction since its inception in 1999.29 The unit also
                              has performed a variety of HLS missions since the September 11, 2001, attacks.
                              These include HLS overﬂights over major U.S. cities including: New York City,
                              New Orleans, Houston, and Los Angeles. More recently, these aircraft were
                              part of an Enhanced Maritime Safety and Security Team (EMSST) involved in
                              providing security at the recent G-8 conference in Atlanta, Georgia, President
                              Reagan’s memorial in Washington, DC, and the Democratic National Convention
                              in Boston, Massachusetts.

                              The HITRON squadron operates eight leased AUF-equipped MH-68A aircraft
                              from its Cecil Field facility in Jacksonville, Florida, at a cost of more than $14


28
   Taking parts from otherwise serviceable aircraft to keep other aircraft ﬂying. Cannibalization takes planes out of the rotation, increases 

the workload and maintenance on the other planes, and depletes ﬂexibility in meeting response requirements. It also translates Coast Guard 

parts shortages into personnel problems because it doubles the maintenance workload. 

29
   The original HITRON “unit” started conducting drug interdiction in 1999. The HITRON “unit” was later transformed into the larger 

HITRON “squadron,” which started conducting drug interdiction mission in 2001.
	
30
   Annual cost estimate includes leasing and maintenance costs associated with the MH-68A. 



                                        Re-Engining of the HH-65 Helicopter                                                         Page 19
                                            United States Coast Guard
                             million a year.30 Currently, the HITRON lease is in year one of a one-year
                             contract with four option years (through 2008). The current lease option expires
                             in January 2005.

                             According to the Coast Guard, the decision to lease AUF-capable aircraft to
                             perform the HITRON mission was originally intended as a stopgap measure until
                             the Coast Guard could undertake a more permanent solution. The Coast Guard
                             has known since at least December 2002 that a re-engined HH-65 with the AUF
                             upgrades installed could perform the HITRON mission. Table 3 includes a list
                             and estimated cost of the minimum upgrades needed to transform a re-engined
                             HH-65 into an AUF-capable aircraft.

                                              Table 3. – List of the AUF Upgrades Needed to Make
                                                the Re-engined HH-65 an AUF-Capable Aircraft
                                                                    AUF Upgrades
                                       Law Enforcement Lights, Loudhailer, Siren
                                       Aircraft Armor
                                       Weapons Mount and Hardware
                                       FLIR 31 Optical Sensor System
                                       CDU 900 Software Upgrade
                                       Night Vision Goggles Heads Up Display (HUD)
                                       Satellite Communications (Voice)
                                       Sixth Fuel Cell32
                                       Estimated Cost --           Per Aircraft33
                                Source: U.S. Coast Guard



                             Although the current Deepwater contract does not include a requirement for
                             AUF-capable aircraft, the Coast Guard testiﬁed before Congress that there is an
                             urgent need to develop their rotary-wing aircraft into AUF-capable platforms to
                             be able to perform the HITRON and HLS missions. The Coast Guard also is in
                             the process of changing the Deepwater System Performance Speciﬁcation (SPS)
                             to include the requirement that all Coast Guard rotary-wing aircraft, including
                             the HH-65, be AUF-capable. The HH-65 performance speciﬁcations for AUF
                             currently being considered are based on the current HITRON lease contract.
                             These speciﬁcations include:

31
   Forward Looking Infrared Radar system. An identical FLIR system is installed aboard CGNR 6560
	
32
   According to the Coast Guard, a sixth fuel cell could be installed aboard a re-engined HH-65 for an estimated $44,000.
	
33
   The estimated cost of adding the AUF upgrade includes $1,075,000 dollars worth of non-recurring engineering costs allocated among 

eight HH-65 airframes. 

34
     With the extended nose and N4 gearbox upgrades installed.
	


Page 20                                                   Re-Engining of the HH-65 Helicopter
                                                              United States Coast Guard
                                                                                                    1




              Power Reserve - a 20% reserve power requirement measured from maximum
              continuous power when taking off at its maximum gross weight of 9,200 pounds.
              A re-engined HH-65 provides a 20% power margin when taking off at its
              maximum gross weight of 9,480 pounds.

              Maneuverability - 45 knots sideward ﬂight. The re-engined HH-65 operated
              at its maximum gross weight of 9,480 pounds is capable of a speed of 55 knots
              sideward ﬂight.

              Flight Endurance - 2 hours and 30 minutes endurance, including 20 minutes of
              reserve fuel. The re-engined HH-65, ﬁtted with a sixth fuel cell, will have 3 hours
              and 30 minutes endurance, including 20 minutes of reserve fuel, when taking off
              at its maximum gross weight of 9,480 pounds.

              Although HITRON’s squadron of MH-68A aircraft have successfully interdicted
              go-fast boats smuggling drugs into the United States, they do not meet the
              minimum power, maneuverability, and ﬂight endurance requirements outlined
              in the latest HITRON contract. Further, the Coast Guard’s decision to bypass
              Aircraft Conﬁguration and Control Board (ACCB) procedures and remove
              critical safety equipment, such as emergency ﬂoats and hoist from the MH-68A
              to improve its ﬂight endurance, coupled with a history of unresolved problems
              with the aircraft’s tail rotor blade assembly, continue to raise serious questions
              about the safety and the suitability of the aircraft for the HITRON mission. The
              replacement of the MH-68A with a re-engined and AUF-capable HH-65 would
              eliminate the air crew safety and operational issues associated with the MH-68A,
              and reduce the net operating expenses associated with the HITRON squadron
              by an estimated $38 million dollars over the next three years. It also would
              provide the Coast Guard with the opportunity to take advantage of the operating
              efﬁciencies currently provided by the HH-65 maintenance, logistic, and training
              infrastructure, as well as provide the foundation for future expansion of its
              AUF-capability along the U.S. Great Lakes, Atlantic, Paciﬁc, and Gulf coasts.



Ability of the HH-65 to Meet Deepwater’s MCH Requirements
              According to the Coast Guard’s recently retired Chief, Ofﬁce of Aeronautical
              Engineering, a re-engined HH-65 equipped with the extended nose upgrade,
              N4 gearbox, and fuel cell upgrades would meet existing Multi-mission Cutter
              Helicopter (MCH) power, maneuverability, and endurance requirements, as
              deﬁned by the existing Deepwater contract.


                     Re-Engining of the HH-65 Helicopter                                  Page 21
                         United States Coast Guard
                               The re-engined HH-65 also would meet the additional MCH mission requirements
                               currently envisioned by the Coast Guard.34 The Coast Guard is currently working
                               to amend the MCH requirements in the Deepwater contract to include AUF,
                               vertical insertion,35 and vertical delivery36 mission capabilities. According to the
                               Coast Guard, the re-engined HH-65, equipped with the AUF upgrades, when
                               operated at its maximum take-off weight of 9,480 pounds, would be capable of
                               conducting the AUF, vertical insertion, and vertical delivery missions with a 20%
                               reserve power and an on-scene endurance of 1 hour and 30 minutes. Table 4
                               contains a summary of the upgrades needed to meet future AUF, HLS, and MCH
                               requirements.

                                                   Table 4. - Summary of Upgrades Needed to Meet 

                                                     Future AUF, HLS, and MCH Requirements
	
                 Re-engining Upgrades                         AUF Upgrades                           MCH Upgrades
                                                  Law Enforcement Lights,
              Turbomeca 2C2 Engine                                                          Tail Rotor Upgrade
                                                  Loudhailer, Siren
              N4 Gearbox                          Aircraft Armor                            Landing Gear Upgrade
              Extended Nose                       Weapons Mount and Hardware                Fenestron (10 Bladed)
                                                  FLIR Optical Sensor System                Digital Flight Director System
                                                  CDU 900 Software Upgrade                  Radar Upgrade
                                                  NVG Heads Up Display (HUD)                Avionics Upgrade
                                                  Satellite Communications (Voice)          Satellite Communications (Data)
                                                  Sixth Fuel Cell                           Flight Deck Assist System
                                                                                            MFD Software Upgrade (FLIR)
                                                                                            Avionics Relocation
            Source: U.S. Coast Guard

                               The larger question facing the Coast Guard is not whether the re-engined and
                               upgraded HH-65 will be able to perform the MCH mission, but whether there
                               will be a sufﬁcient number of re-engined HH-65s to perform all required
                               missions. The original 96 HH-65s were purchased at a time when the number
                               and complexity of Coast Guard missions were fewer and less complicated. In
                               contrast, the missions performed by the HH-65 today are increasingly varied and


35
   The vertical insertion mission, as envisioned by the Coast Guard, calls for the MCH to deliver a four-person boarding team
(via fast-roping) to a potentially hostile vessel or platform within an operational radius of 50 nautical miles. According to the
Deepwater contract, the MCH will be deployed from Coast Guard cutters.
36
   The vertical delivery mission, as envisioned by the Coast Guard, calls for the MCH to be able to lower (by rescue basket or
Coast Guard sling) a four-person boarding team onto a non-hostile vessel located within an operational radius of 50 nautical
miles. 

37
     The LTS-101-850 engine is an upgraded version of the LTS-101-750 engine, which was originally installed aboard the HH-65. 



Page 22                                                     Re-Engining of the HH-65 Helicopter
                                                                United States Coast Guard
                                                                                                       1




              complex. The increased training required to perform these missions are steadily
              eroding available ﬂight hours. For example, the Program Flight Hours for the
              HH-65 is 645 ﬂight hours per year. However, 45% of the program ﬂight hours are
              devoted to training for legacy and HLS missions, thereby reducing the number of
              ﬂight hours devoted to the Coast Guard’s legacy missions to about 355 hours per
              year.

              The number of HH-65 ﬂight hours rarely change from year to year. Hence, any
              increase in the number of ﬂight hours devoted to Ports and Waterway Coastal
              Security (PWCS), Defense Readiness, and Enforcement of Laws and Treaty
              missions is attained at the expense of other Coast Guard missions. For example,
              the number of HH-65 ﬂight hours ﬂown in support of PWCS, Defense Readiness,
              Enforcement of Laws and Treaties, and various support missions between FY
              2001 and FY 2003 increased by 34% (8,524 ﬂight hours). During the same
              period, the total number of HH-65 ﬂight hours ﬂown in support of non-HLS
              missions, i.e., SAR, Marine Safety, Ice Operations, and Aid-to-Navigation,
              decreased by 13% (2,611 ﬂight hours). For the Coast Guard to restore the lost
              ﬂight hours, they could either increase the number of program ﬂight hours for the
              re-engined HH-65 or acquire and refurbish additional HH-65s and airframes.

              To its credit, the Coast Guard is beginning to address its force structure shortfalls.
              During July 2003, the Commandant requested that its Deepwater sponsors
              assess the personnel, training, equipment, and infrastructure implications and
              gaps associated with the Coast Guard’s heightened role in national security and
              national defense. According to the Coast Guard, the ongoing Performance Gap
              Analysis will provide the road map for developing the force structure needed to
              meet the Coast Guard’s legacy and homeland security responsibilities. It is clear
              from our review of the preliminary analysis conducted to date, the Coast Guard
              expects a re-engined and AUF-capable HH-65 to play a vital and prominent role
              in the solution.



Latest Developments
              Concern about the lack of progress, the rising cost, and increasing risks associated
              with the HH-65 re-engining project is mounting within the Coast Guard’s senior
              aviation leadership. In a May 18, 2004, memorandum to the Commandant, the
              Assistant Commandant for Operations recommended that the ongoing delays,
              burgeoning costs, and increased operational risks associated with the re-engining
              project could be mitigated if the Coast Guard re-asserted control over the HH-65


                      Re-Engining of the HH-65 Helicopter                                    Page 23
                          United States Coast Guard
                            re-engining project and placed responsibility for re-engining the HH-65 into
                            “the capable hands of ARSC.” The Assistant Commandant also recommended
                            that some of the re-engined HH-65s be conﬁgured to perform the HITRON AUF
                            mission.

                            The June 8, 2004, failure of the Honeywell LTS-101-85037 engines that were
                            installed aboard a HH-65 assigned to Air Station Miami, and the subsequent
                            grounding of aircraft that were ﬁtted with the engine, is increasing our concern
                            that the Coast Guard may not have an adequate number of spare engines to
                            maintain the readiness of its HH-65 ﬂeet during the re-engining time frame.
                            This engine failure was the third LTS-101-850 engine failure reported during
                            FY 2004.38 Prior to the most recent engine failure, the Coast Guard had intended
                            to install LTS-101-850 engines aboard 25 HH-65’s at Air Stations Miami, New
                            Orleans, Corpus Christi, Houston, and ATC Mobile to improve the aircraft’s hot
                            weather performance. According to the Coast Guard, 32 spare engines are needed
                            during any three-month period to maintain the operational readiness of the HH-65
                            ﬂeet.

                            As of July 14, 2004, the Coast Guard’s air stations had 17 spare LTS-101-750
                            engines available.39 Further, Honeywell has halted production of the
                            LTS-101-750 engine in 1990. While the Coast Guard could compensate for
                            the shortage by using used LTS-101-750 engines removed from the HH-65s
                            undergoing overhaul and modiﬁcation, the condition and availability of these
                            engines is unknown. We are concerned about the Coast Guard’s ability to
                            obtain spare LTS-101 engines given the delays in the establishment of a HH-65
                            modiﬁcation line.40 We also are concerned about the cost and operational impact
                            on air stations should they be forced to ship spare engines from other units or
                            cannibalize HH-65 aircraft, which have been taken out of service for scheduled
                            maintenance, to meet minimum station readiness requirements. Consequently,
                            the Coast Guard can ill-afford any additional delays in the development and
                            implementation of the HH-65 modiﬁcation line.

                            Air crew safety and the operational readiness of Coast Guard air stations have
                            continued to deteriorate in the 15 weeks that have elapsed since the Assistant
                            Commandant for Operations’ May 18, 2004, memorandum. The number of in-

Honeywell’s ability to provide a comparable number of the original LTS-101-750 engines is not known. 

38
   Two prior LTS-101-850 engine failures occurred on November 5 and November 8, 2003. 

39
   The Coast Guard also reported that 6 of their 17 air stations (35%) that ﬂy the HH-65 had no spare engines.
	
40
   The July 2004 proposal would create a HH-65 modiﬁcation line at ARSC. The purpose of the modiﬁcation line would be to re-engine 

those HH-65 aircraft that do not require a complete overhaul. 




Page 24                                                  Re-Engining of the HH-65 Helicopter
                                                             United States Coast Guard
                                                                                                    1




            ﬂight loss of power mishaps has increased by 29%; the LTS-101-850 engine,
            which was intended to temporarily support the HH-65 ﬂeet during the re-engining
            project, failed during testing; and, the estimated date for completing the re-
            engining of the entire ﬂeet of HH-65s has slipped by eleven months.

            Given the air crew safety, delivery delays, high cost, and operational risks
            associated with the HH-65 re-engining project, the Coast Guard should implement
            the recommendation of its senior aviation leadership to re-assert control of
            the HH-65 re-engining project and execute the HH-65 ﬂeet re-engining as a
            government performed project at ARSC. The Coast Guard should take action to
            reduce the impact of the re-engining project upon the operational readiness and
            capability of the HH-65 ﬂeet. Finally, the Coast Guard should take advantage
            of a timely and cost-effective opportunity to develop an organic asset capable of
            performing the AUF missions.



Recommendations
            We recommend that the Commandant:

                  1. 	 Direct the Coast Guard’s senior leadership, including the Assistant
                       Commandants for Operations and Systems and the Chief Counsel, to
                       implement the Assistant Commandant for Operations’ May 18, 2004,
                       recommendation that the HH-65 re-engining project be taken from ICGS
                       and performed as a government performed project.

                  2. 	 Expedite the replacement of the MH-68A helicopters operated by the
                       HITRON squadron with re-engined HH-65s equipped with the Airborne
                       Use of Force upgrades.

                  3. 	 Acquire and refurbish additional HH-65 aircraft and airframes to reduce
                       the effect on mission readiness and operational capability associated with
                       the removal of HH-65s from service for re-engining and to compensate
                       for the HH-65s assigned to the HITRON squadron.

                  4. 	 Use the savings resulting from the termination of the HITRON lease to
                       mitigate the costs associated with the maintenance of its legacy aviation
                       assets.




                     Re-Engining of the HH-65 Helicopter                                  Page 25
                         United States Coast Guard
Appendix A
Comparison of the Performance of the LTS-101 and
Arriel 2C2 Engines – 10/20% Power Reserve

          Comparison of the Performance of the Honeywell LTS-101 and Arriel 2C2 Engines
	
                                      10% Power Reserve
	


                                    LTS-101 Engine                          Arriel 2C2 Engine
      Mission Proﬁle
                            Power Required      Power Available       Power Required
 (Temperature in Celsius)                                                              Power Available
                            (SHP) 50 Ft No                            (SHP) 50 Ft No
                                                                                         (SHP) 2C2
                            Wind HOGE *                                Wind HOGE
                                                 750        850
     10% Reserve
 SAR
                                 470             569       649              664              914
 (15 Degrees @ Sea Level)
 Vertical Insertion
                                 482             569       649              693              914
 (15 Degrees @ Sea Level)
 AUF
                                 470             569       649              664              914
 (15 Degrees @ Sea Level)
 SAR
                                 506             435       496              681              795
 (35 Degrees @ Sea Level)
 Vertical Insertion
                                 531             436       497              714              795
 (35 Degrees @ Sea Level)
 AUF
                                 506             435       496              681              795
 (35 Degrees @ Sea Level)
Source: U.S. Coast Guard

                                       * Hover Out of Ground Effect




Page 26                                        Re-Engining of the HH-65 Helicopter
                                                   United States Coast Guard
                                                         Appendix A
                                                         Comparison of the Performance of the LTS-101 and
                                                         Arriel 2C2 Engines – 10/20% Power Reserve
                                                                                                                   1




     Comparison of the Performance of the Honeywell LTS-101 and Arriel 2C2 Engines
                                 20% Power Reserve


                                   LTS-101 Engine                           Arriel 2C2 Engine
      Mission Proﬁle
                            Power Required      Power Available       Power Required
 (Temperature in Celsius)                                                              Power Available
                            (SHP) 50 Ft No                            (SHP) 50 Ft No
                                                                                         (SHP) 2C2
                             Wind HOGE*                                Wind HOGE
                                                 750        850

     20% Reserve
 SAR
                                 595             569        649            724               914
 (15 Degrees @ Sea Level)
 Vertical Insertion
                                 622             569        649            756               914
 (15 Degrees @ Sea Level)
 AUF
                                 595             569        649            724               914
 (15 Degrees @ Sea Level)
 SAR
                                 735             436        497            743               795
 (35 Degrees @ Sea Level)
 Vertical Insertion
                                 779             436        497            779               795
 (35 Degrees @ Sea Level)
 AUF
                                 735             436        497            743               795
 (35 Degrees @ Sea Level)
Source: U.S. Coast Guard


                                       * Hover Out of Ground Effect




                               Re-Engining of the HH-65 Helicopter                                       Page 27
                                   United States Coast Guard
Appendix B
Photographs of a HH-65 Progressing
Through the PDM Line at ARSC

      HH-65 PDM Line – U.S. Coast Guard Aircraft Repair and Supply Center,
	
                              Elizabeth City, NC
	




Page 28                              Re-Engining of the HH-65 Helicopter
                                         United States Coast Guard
                                                      Appendix B
	
                                                      Photographs of a HH-65 Progressing
                                                      Through the PDM Line at ARSC
                                                                                           1




HH-65 PDM Line – U.S. Coast Guard Aircraft Repair and Supply Center,
                        Elizabeth City, NC




                Re-Engining of the HH-65 Helicopter                              Page 29
                    United States Coast Guard
Appendix C
Purpose, Scope, & Methodology



Purpose, Scope, and Methodology
                   We evaluated the efforts undertaken by the Coast Guard and its Deepwater
                   Strategic partners to resolve the escalating safety, reliability, and operational
                   capability issues associated with the HH-65 ﬂeet of helicopters. In addition, we
                   assessed the capability of the re-engined and upgraded HH-65 to perform the
                   MCH requirements outlined in the existing Deepwater contract.

                   To understand the actions that have been taken to re-engine the HH-65, we
                   reviewed: the steps taken to resolve the engine safety and reliability issues
                   affecting the HH-65 ﬂeet; the test results for the LTS-101-850 and Arriel 2C2
                   engines; and the air crew safety, power, maneuverability, and endurance issues
                   associated with the MH-68A. We examined test reports documenting the ability
                   of the MH-68A and the re-engined HH-65 to perform the HITRON mission.
                   To ascertain the production capability of ARSC, we visited the facility and
                   interviewed personnel responsible for maintaining, overhauling, and upgrading
                   the HH-65 (Dolphin), HH-60 (Jayhawk), HU-25 (Falcon), and HC-130 (Hercules)
                   ﬂeet of aircraft. We also analyzed the Coast Guard’s FY 2004 through FY 2006
                   budget request to determine the viability of funding for legacy aviation asset
                   maintenance and upgrades.

                   We interviewed ofﬁcials from Coast Guard headquarters in Washington, DC and
                   Coast Guard’s ARSC in Elizabeth City, NC. A series of headquarter interviews
                   were conducted with ofﬁcials from the Chief of Staff’s Ofﬁce of Programs, the
                   Deepwater Program Executive Ofﬁce, the Ofﬁce of Aviation Forces, the Ofﬁce
                   of Aeronautical Engineering, and the Ofﬁce of Safety and Environmental Health.
                   A series of ARSC interviews were conducted with ofﬁcials from the Ofﬁce of the
                   Commanding Ofﬁcer for the ARSC Product Line and ofﬁcials responsible for the
                   HH-65 overhaul, repair, and modiﬁcation line.

                   We performed the review between February 2004 and August 2004 under the
                   authority of the Inspector General Act of 1978, as amended, and according to
                   generally accepted government auditing standards. However, we relied on the
                   Coast Guard’s test and evaluation data, without independently validating the
                   information. For example, we did not validate the accuracy of the Coast Guard’s
                   and Coast Guard contractor ﬂight-testing and performance analyses involving
                   HH-65 ﬁtted with the Arriel 2C2 engines and AUF upgrades or on the HH-65
                   ﬁtted with LTS-101-750/850 engines. In addition, we did not validate the analysis
                   of a Eurocopter market survey, which evaluated compatible engines qualiﬁed to
                   meet certain Coast Guard speciﬁcations for the HH-65 aircraft. Determinations


Page 30                                  Re-Engining of the HH-65 Helicopter
                                             United States Coast Guard
                                               Appendix C
                                               Purpose, Scope, & Methodology
                                                                                   1




on engine capability were based on the assertions and HH-65 engine test data
analyses provided by the Coast Guard management and Coast Guard aeronautical
engineering experts.

Throughout the review, we worked closely with Coast Guard ofﬁcials. We greatly
appreciate the cooperation and professional courtesies extended by the Coast
Guard to the OIG audit team. Major OIG contributors to the project are identiﬁed
in Appendix E.




       Re-Engining of the HH-65 Helicopter                               Page 31
           United States Coast Guard
Appendix D
U.S. Coast Guard’s Comments




Page 32                       Re-Engining of the HH-65 Helicopter
                                  United States Coast Guard
                                      Appendix D
                                      U.S. Coast Guard’s Comments
                                                                    1




Re-Engining of the HH-65 Helicopter                        Page 33

    United States Coast Guard 

Appendix D
U.S. Coast Guard’s Comments




Page 34                       Re-Engining of the HH-65 Helicopter
                                  United States Coast Guard
                                      Appendix D
                                      U.S. Coast Guard’s Comments
                                                                    1




Re-Engining of the HH-65 Helicopter                        Page 35

    United States Coast Guard 

Appendix D
U.S. Coast Guard’s Comments




Page 36                       Re-Engining of the HH-65 Helicopter
                                  United States Coast Guard
                                      Appendix D
                                      U.S. Coast Guard’s Comments
                                                                    1




Re-Engining of the HH-65 Helicopter                        Page 37

    United States Coast Guard 

Appendix E
OIG Evaluation of Coast Guard’s
Response


OIG Evaluation of U.S. Coast Guard Response
                               The OIG issued the formal draft version of the report to the Coast Guard on
                               August 31, 2004. The ﬁnal report is based on the analysis of information
                               provided to the OIG up to and including August 31, 2004.

            Contracting with ICGS

                               OIG remains concerned about the Coast Guard’s decision not to have ARSC
                               implement the HH-65 re-engining solution as a government performed project.
                               Our review of the documentation indicated the Coast Guard was aware at the
                               outset of the re-engining project that its use of an outside contractor would take
                               longer and cost more than it would have if they elected to have ARSC perform
                               the re-engining as a government performed project. They were also aware that
                               any extension of the project’s time line would: expose HH-65 air crews to the
                               risks of additional in-ﬂight loss of power mishaps; further postpone critical legacy
                               aviation asset maintenance and upgrade projects; and extend the operational
                               restrictions placed on the HH-65 ﬂeet which are signiﬁcantly impacting the Coast
                               Guard’s ability to perform its SAR and other humanitarian-related missions.

                               From a contract performance and cost perspective, the Coast Guard maintains
                               that an ICGS solution will restore the operational capability of the HH-65 ﬂeet
                               in the fastest possible way at a reasonable cost to taxpayers. While this is a
                               worthy goal, it is not what ICGS and the Coast Guard have provided the HH-65
                               community to date. For example, ICGS’ initial re-engining solution was 34 days
                               late and included $123 million worth of goods and services that the Coast Guard
                               did not ask for and could not afford.41 It then took ICGS an additional 16 weeks
                               to reach an agreement with its subcontractors to buy engines and modiﬁcation kits
                               at the price quoted in the proposal. ICGS also has not met its June deadline for
                               delivering the ﬁrst re-engined HH-65. Finally, neither ICGS nor the Coast Guard
                               have provided ARSC with the funding it needs to develop a B to C modiﬁcation
                               line despite ICGS’ intention to have ARSC re-engine the entire HH-65 ﬂeet.

                               Whether the Coast Guard stays the course with ICGS or decides to have ARSC
                               perform the re-engining as a government performed project does not change the
                               fact that the lengthy negotiations have already affected the delivery of engines and
                               modiﬁcation kits, postponed the development of the modiﬁcation line at ARSC,
                               and ultimately pushed back the delivery of re-engined HH-65s into FY 2008, well

41
     The Business Case Analysis, which was due to the Coast Guard on April 19, 2004, was not delivered until sometime in June, 2004.



Page 38                                                      Re-Engining of the HH-65 Helicopter
                                                                 United States Coast Guard
                                                 Appendix E
                                                 OIG Evaluation of Coast Guard’s
                                                 Response
                                                                                      1




beyond the Commandant’s completion date. Ironically, this is exactly what Coast
Guard’s Judge Advocate General predicted would happen in January 2004. In a
memo to the Commandant’s Chief of Staff outlining the legal issues surrounding
the HH-65 re-engining project, he predicted the selection of ICGS to develop
and implement the HH-65 re-engining solution would reduce the Coast Guard’s
control over the project, lengthen the negotiation process, increase project costs,
and ultimately delay the delivery of re-engined aircraft. It took ICGS almost
ﬁve months to conclude what the Coast Guard’s senior aviation leadership had
already determined back in December 2002, --- that a re-engined HH-65 with the
Turbomeca 2C2 engine, N4 gearbox, extended nose, and an additional fuel cell
would resolve the safety and reliability problems associated with this aircraft.
Further, ICGS’ recommendation that ARSC re-engine the entire HH-65 ﬂeet will
cost the Coast Guard abou                   more than it would have cost them if
the re-engining was performed by ARSC as a government performed project.

The Coast Guard contends that because of the timing of the audit, the Inspector
General’s team relied heavily on pre-decisional materials, preliminary cost
estimates and notional schedules, and that further reﬁnement of these inputs
demonstrates clearly that the Coast Guard made the right decision in contracting
with ICGS to manage this project. However, the information in our report was
presented by or developed in concert with senior Coast Guard ofﬁcials. These
include: the Coast Guard’s Chief of Operations; the Chief, Ofﬁce of Aviation
Forces; the Chief, Ofﬁce of Aeronautical Engineering; the Chief, Ofﬁce of
Aviation Safety, and the Commanding Ofﬁcer, Coast Guard’s Aviation Repair and
Supply Center.

The Coast Guard response also fails to note that ICGS’ most recent re-engining
proposal was virtually identical (except for the cost) to the re-engining solution
presented by the Coast Guard’s senior aviation leadership to the Commandant in
December 2003. We would also note that at the time the Coast Guard assigned
the re-engining project to ICGS, the staff assigned to ARSC and the Coast
Guard’s Ofﬁce of Aviation Forces and Ofﬁce of Aviation Engineering, had spent
two years working with Turbomeca and AEC to construct the ﬁrst re-engined and
AUF-capable HH-65. In addition, ARSC has developed the capability to fabricate
many of the unique parts included in the B to C modiﬁcation kit. ICGS, on the
other hand, had no prior experience maintaining, overhauling, upgrading, or
operating the HH-65.

The Coast Guard also says that terminating the ICGS HH-65 re-engining task
order contract would create impacts not quantiﬁed in the Inspector General’s


       Re-Engining of the HH-65 Helicopter                                  Page 39
           United States Coast Guard
Appendix E
OIG Evaluation of Coast Guard’s
Response

                     report -- the sunk costs could not be recouped, and ICGS could be entitled to other
                     termination entitlements, which would signiﬁcantly reduce or eliminate any cost
                     “savings” gained from termination. They believe termination for the purpose
                     of converting the work to in-house performance could also be improper without
                     assessment in accordance with OMB Circular A-76 requirements. Finally, the
                     Coast Guard would have to assume full oversight of the project, incurring costs in
                     contracting, project management, other overhead functions, and opportunity costs
                     that have not been quantiﬁed. The Coast Guard would then likely experience the
                     same challenges that ICGS is facing with obtaining critical parts and scheduling
                     work to minimize the project time line.

                     OIG agrees that the termination of the contract entered into with ICGS on
                     September 17, 2004, would likely result in costs that would diminish the savings
                     that would be achieved had the Coast Guard decided to have ARSC perform the
                     re-engining as a government performed project. The response, however, fails to
                     note that the Coast Guard was well-aware of our recommendation to terminate
                     the contract with ICGS. The recommendation was included in the discussion
                     draft version of the report provided to the Coast Guard on July 27, 2004. The
                     recommendation was also a major topic of discussion at the August 3, 2004,
                     exit conference with the Coast Guard. Finally, the recommendation was
                     included in the formal draft version of the report issued to the Coast Guard on
                     August 31, 2004. Consequently, the Coast Guard could have avoided these
                     additional expenses had it implemented our recommendation.


          Other Recommendations

                     The OIG is pleased to note that the Coast Guard supports the intent of
                     recommendations two, three, and four. In the short term, implementing these
                     three recommendations would: eliminate an expensive and marginally-capable
                     aircraft from the Coast Guard’s inventory; expand the Coast Guard’s counter drug
                     and AUF capabilities; minimize the impact the re-engining project is having on
                     the Coast Guard’s ability to perform the Short Range Recovery (SRR) mission;
                     and, help restore funding for critical legacy aviation asset maintenance and
                     upgrade projects. OIG would support Coast Guard funding requests that expedite
                     their efforts to eliminate the air crew safety, reliability, and performances issues
                     associated with the HH-65.




Page 40                                     Re-Engining of the HH-65 Helicopter
                                                United States Coast Guard
                                                                Appendix F
	
                                                                Major Contributors to This Report
                                                                                                     1




            THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT


Name 	                                     Title

Richard T. Johnson 	   Project Manager, Coast Guard Audits, Department of Homeland Security,
                       Ofﬁce of Inspector General, Washington, DC Ofﬁce

Sara Ancona 	          Senior Analyst, Coast Guard Audits, Department of Homeland Security,
                       Ofﬁce of Inspector General, Washington, DC Ofﬁce

Jeffrey Wilson 	       Analyst, Coast Guard Audits, Department of Homeland Security, Ofﬁce of
                       Inspector General, Washington, DC Ofﬁce




                          Re-Engining of the HH-65 Helicopter                              Page 41
                              United States Coast Guard
Appendix G
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      General Counsel
                      Chief of Staff
                      Commandant, United States Coast Guard
                      United States Coast Guard Audit Liaison
                      Undersecretary for Management
                      DHS Audit Liaison Management
                      DHS Public Affairs

                      Ofﬁce of Management and Budget

                      Chief Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




Page 42                                    Re-Engining of the HH-65 Helicopter
                                               United States Coast Guard
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.
dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
